No. 20-380
In the

Supreme Court of the United States

IDENIX PHARMACEUTICALS LLC, et al.,
Petitioners,
v.
GILEAD SCIENCES, INC.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

AMICUS CURIAE BRIEF OF
GLAXOSMITHKLINE PLC. IN
SUPPORT OF PETITIONERS
Todd L. Krause
Thomas J. Derbish
Eli Balsam
Desmarais LLP
230 Park Avenue
New York, NY 10169

John M. Desmarais
Counsel of Record
Desmarais LLP
230 Park Avenue
New York, NY 10169
(212) 351-3420
jdesmarais@desmaraisllp.com

Counsel for Amicus Curiae
299542

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTERESTS OF AMICUS  . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

LEFT UNDISTURBED, THE FEDERAL
C I R C U I T ’ S I DE N I X DE C I S ION
W I L L H AV E A DE VA S T A T I NG
EF F E C T ON C R I T IC A L DRUG DI S C OV ERY R E S E A RC H A N D
DEVELOPMENT EFFORTS . . . . . . . . . . . . . . . 5

II. T H E F E D E R A L C I R C U I T ’ S
RECENT DECISIONS CAST ASIDE
A L MO S T T WO C EN T U R I E S OF
PATENT PRACTICE TO RADICALLY
CURTAIL GENUS CLAIMING  . . . . . . . . . . . . 7
A. Courts Have Long Recognized That
The Plain Text Of The Patent Act
Allows For Genus Claiming Where
The Claims Are Enabled . . . . . . . . . . . . . . . . 8

ii
Table of Contents
Page
B. Pre-Idenix Case Law Applied A
Case-Specific Enablement
A nalysis Appropriately Tailored
To The Scope Of Genus Claims  . . . . . . . . . 13
C. The Federal Circuit Has Recently
Adopted Bright-Line Rules That
Effectively Eliminated Patentees’
Ability To Claim A Genus
of Compounds . . . . . . . . . . . . . . . . . . . . . . . . 16
1.

Idenix Codifies A Bright-Line
Ru le Creat i ng A Nu mer ica l
L i m i t O n T h e Nu m b e r O f
Compounds In A Genus Claim  . . . . . .  17

2. Idenix Also Adds To The Court’s
Trend Toward A Bright-Line Rule
That A Patentee Must Enable Every
Single Species In A Genus Claim . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Application of Angstadt,
537 F.2d 498 (C.C.P.A. 1976)  . . . . . . . . . . . . . . . . 12, 13
Application of Grimme,
274 F.2d 949 (C.C.P.A. 1960)  . . . . . . . . . . . . . . . . . . . 12
Application of Petering,
301 F.2d 676 (1962)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Atlas Powder Co. v.
E.I. du Pont De Nemours & Co.,
750 F.2d 1569 (Fed. Cir. 1984) . . . . . . . . . . . . . . .  14, 16
Consol. Elec. Light Co v. McKeesport Light Co.,
159 U.S. 465 (1895) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Corona Cord Tire Co. v. Dovan Chem. Corp.,
276 U.S. 358 (1928)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Holland Furniture Co. v. Perkins Glue Co.,
277 U.S. 245 (1928) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Hynix Semiconductor Inc. v. Rambus Inc.,
645 F.3d 1336 (Fed. Cir. 2011) . . . . . . . . . . . . . . . . . . 16
Idenix Pharm. LLC v. Gilead Scis. Inc.,
941 F.3d 1149 (Fed. Cir. 2019) . . . . . . . . . . . . . . passim

iv
Cited Authorities
Page
In re Vaeck,
947 F.2d 488 (Fed. Cir. 1991) . . . . . . . . . . . . . . . .  11, 15
In re Wands,
858 F.2d 731 (Fed. Cir. 1988) . . . . . . . . . . . . . . . .  11, 15
In re Woodruff,
919 F.2d 1575 (Fed. Cir. 1990) . . . . . . . . . . . . . . . . . . . 7
Minerals Separation v. Hyde,
242 U.S. 261 (1916)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
O’Reilly v. Morse,
56 U.S. 62 (1854) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Pfizer, Inc. v. Apotex, Inc.,
480 F.3d 1348 (Fed. Cir. 2007) . . . . . . . . . . . . . . . . . . . 7
Regents of the Univ. of California v.
Eli Lilly & Co.,
119 F.3d 1559 (Fed. Cir. 1997) . . . . . . . . . . . . . . . . . . . 8
Utter v. Hiraga,
845 F.2d 993 (Fed. Cir. 1988) . . . . . . . . . . . . . . . . . . . 16
Wyeth & Cordis Corp. v. Abbott Labs.,
720 F.3d 1380 (Fed. Cir. 2013) . . . . . . . . . . . . . . .  16, 17

v
Cited Authorities
Page
Statutes
35 U.S.C. § 112(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 8
Rev. Stat. § 4888, ch. 230, § 26, 16 Stat. 201 (1870)  . . . 11
Other Authorities
Sean Seymour, Patenting the Unexplained,
96 Wash. U. L. Rev., 707 (2019) . . . . . . . . . . . . . . . . . . 2
2019 GSK Annual Report  . . . . . . . . . . . . . . . . . . . . . . . . . 5
GSK Public Policy Positions – Patents & Access to
Medicines in Developing Countries  . . . . . . . . . . . . . . 6

1
INTERESTS OF AMICUS
Amicus GlaxoSmithKline (“GSK”) is one of the
largest pharmaceutical, consumer-healthcare, and
vaccine companies in the world.1 GSK spends billions of
dollars annually—including more than $5 billion in 2019
alone—developing groundbreaking drugs and vaccines,
and bringing them to market. Those efforts have yielded
breathtaking new therapies to fight a wide variety of
diseases, including HIV, cancer, shingles, meningitis,
asthma, diabetes, malaria, COVID-19, and others: As
of the second quarter of 2020, GSK has thirty-five new
medications and fifteen new vaccines under development.
Genus claims—that is, patent claims that encompass, for
example, a family of chemical compounds—are critical to
the protection of GSK’s past innovations. Moreover, the
protection afforded by genus claims encourages continued
innovation and early-stage investment by researchoriented companies in the chemical, pharmaceutical,
and biotechnological industries to achieve future
groundbreaking advances. The Federal Circuit’s Idenix
decision imposes new restrictions on genus claims,
casting aside almost two centuries of this Court’s patent
jurisprudence to radically curtail this important area of
patent law. 2 GSK submits this brief to educate the Court
1. Amicus certifies that no counsel for a party authored this
brief in whole or in part and no counsel or party made a monetary
contribution intended to fund the preparation or submission of
this brief. All parties were given proper notice and consented to
the filing of this brief.
2. Amicus takes no position on the validity of the particular
claims at issue in Idenix, and submits this brief solely to encourage
the Court to correct the Federal Circuit’s erroneous legal
framework.

2
on the realities of the industry, and to encourage the Court
to take up this important petition.
SUMMARY OF ARGUMENT
Genus claims, or patent claims “which use functional
language or generic formulas to cover embodiments
of the invention that share a common attribute,” have
become “ubiquitous” in the chemical, pharmaceutical, and
biotechnological industries. 3 That is because genus claims
are critical to protecting innovation in those industries.
Groundbreaking inventions developed by companies
such as GSK often manifest as a family (or genus) of
closely related compounds that contain common chemical
structures. Discovery of such groups of compounds with
common novel chemical structures may take years of
effort and billions of dollars of investment. It is therefore
particularly critical that patentees in such industries be
granted the scope of patent protection to which their
inventions entitle them. Application of arbitrary brightline rules, as the Federal Circuit has done in Idenix, robs
patentees of the entirety of their invention and denies
companies that fund the underlying research the chance
to recoup their investment through patent protection,
licensing, or other business arrangements.
For more than 175 years, courts have recognized the
validity of genus claims. In fact, the text of the Patent
Act squarely allows for genus claims so long as the
patent enables one of skill in the art to “make and use”
the claimed invention. 35 U.S.C. § 112(a). Until recent
cases such as Idenix, the litmus test for genus claims
3. See Sean Seymour, Patenting the Unexplained, 96 Wash.
U. L. Rev., 707, 729 (2019).

3
has been the case-specific question of whether a patent
sufficiently “enables” persons of ordinary skill in the art
(“artisans”) to “make and use” the invention without undue
experimentation—rather than the rote determination of
whether the patent’s claims cover an arbitrarily bounded
number of embodiments. But the Federal Circuit’s Idenix
decision adopted that latter, erroneous framework, all but
eliminating—as a matter of law—patentees’ ability to
make use of genus claims and courts’ ability to assess the
details of a specific case in determining enablement. That
upsets the chemical, pharmaceutical, and biotechnology
industries’ decades-long reliance on genus claims to
protect their important inventions. Indeed, the Federal
Circuit in Idenix invalidated genus claims simply because
the genus in question included a large number of species,
even though the jury had found that an artisan could
“make and use” embodiments of the invention (which is
the Patent Act’s sole textual requirement). And Idenix put
genus claims in further jeopardy by advancing another
bright-line rule contrary to the Patent Act and precedent,
that the patent must enable the making and using of each
and every one of a genus claim’s species for the claim to
be valid.
This sea change threatens to devastate the incentives
for companies like GSK to invest billions of dollars, and
hundreds of thousands of research hours, in discovering
breakthrough chemical structures. Instead of focusing
its efforts on developing the next groundbreaking drug,
GSK would be forced to seek narrow patent claims
that underrepresent the full breadth of its inventions
and its true contributions to the scientific community.
Furthermore, without the protection of genus claims,
companies would be less inclined to disclose the full scope
of their inventions as soon as the breakthrough occurs.

4
They would instead delay disclosure until a product is
well along in development and the company has made and
tested nearly every plausible species within the genus
(which deprives the world of knowledge of the invention
for a longer period of time). And by forcing patentees to
synthesize and test many species in order to have broad
patent protection for their actual inventive contributions,
the Federal Circuit’s decision threatens to divert the
attention of research-oriented companies away from
developing the next groundbreaking drug. Thus, without
a course-correction, the Federal Circuit’s Idenix holding
risks eviscerating the protections and concomitant
incentives to innovate that the patent system was designed
to provide.
The Court should reject the Federal Circuit’s
recent creation of bright-line rules imposing limits on
genus claiming and should instead reaffirm the general
availability of genus claims when they satisfy—based
on the specific circumstances of the case—the statutory
enablement requirement. That would be faithful to the
law as written and would best protect the incentives of
companies like GSK to focus their research efforts on the
development of groundbreaking therapeutic regimens. In
short, patentees should be granted patents over the true
scope of their inventions.

5
ARGUMENT
I.

LEFT UNDISTURBED, THE FEDERAL CIRCUIT’S
IDENIX DECISION WILL HAVE A DEVASTATING
EFFECT ON CRITICAL DRUG-DISCOVERY
RESEARCH AND DEVELOPMENT EFFORTS.

Massive investments—especially in the early days
of drug discovery when the risk of failure is arguably
the greatest—are required to bring new therapeutic
regimens to market. In 2019 alone, GSK invested roughly
£4.3 billion pounds (over $5 billion U.S. dollars) in the
research and development of new therapeutic regimens,
including pharmaceutical drugs.4 GSK’s research efforts
focus on some of the most pressing public health concerns
in the United States and around the world, including
on groundbreaking research in the treatment of HIV/
AIDS, cancer, and respiratory illnesses such as chronic
obstructive pulmonary disease (COPD), as well as on
the development of vaccines to prevent serious medical
conditions like malaria and meningococcal meningitis.5 In
addition, GSK is currently working on the development of
a COVID-19 vaccine.6
Innovative companies in the pharmaceutical and
biotechnology industries depend on the patent system to
4 . Se e ht t p s: // w w w. g s k .c om /en - g b / r e s e a r c h - a nd development/ (last accessed 11/15/2020).
5. See 2019 GSK Annual Report, at 17-25 (available at: https://
www.gsk.com/media/5894/annual-report.pdf).
6. See https://www.gsk.com/en-gb/media/press-releases/
sanofi-and-gsk-initiate-phase-12-clinical-trial-of-covid-19adjuvanted-recombinant-protein-based-vaccine-candidate/ (last
accessed 11/15/2020).

6
protect their investments in developing groundbreaking
phar maceuticals and therapeutics. For example,
pharmaceutical development is a notoriously high
risk endeavor; it is estimated that only 8% of drugs in
development at a given time will ever reach the market.7
By all but eliminating genus claiming—or, at the very
least, drastically increasing the uncertainty that a given
genus claim will be held valid—the Federal Circuit’s
ruling in Idenix will make it more difficult for companies
like GSK to invest in and get compensated, through
licenses or other business arrangements, for teaching the
world about the full scope of their inventions.
Without the robust patent protection offered by genus
claiming that protects the full scope of groundbreaking
inventions, it is less likely that pharmaceutical companies
will risk the huge initial outlays of effort and money
those inventions demand. That risks stifling not only
the current generation of drug development, but also
potentially handicapping drug development for decades
into the future. Furthermore, maintaining efficient and
time-limited patent coverage for an inventor’s entire
invention through a genus claim incentivizes others to
pursue new breakthroughs that meaningfully advance the
pharmaceutical arts. Indeed, a competitor that discovers
unexpectedly beneficial properties of a compound that is
within an already patented genus can itself obtain patent
coverage on that compound. 8
7. See GSK Public Policy Positions – Patents & Access to
Medicines in Developing Countries, at 2 (available at: https://
www.gsk.com/media/2958/patents-and-access-to-medicines-indeveloping-countries-july19.pdf).
8. See Application of Petering, 301 F.2d 676, 683 (1962)
(finding a species patentable over a genus claimed in the prior
art because unexpected properties of the species were shown). Cf.

7
If genus claiming of novel chemical structures
were effectively removed from our patent system,
pharmaceutical companies would be deprived of the ability
to claim their entire invention and would be forced to
limit their patent protection to only a discrete number
of species in the genus. But it is simply not feasible to
individually claim each of the active variations of a new
drug compound.
Allowing for a wide breadth of protection based
on a genus of compounds is, as a practical matter, the
only means to ensure that an inventor actually receives
the period of exclusivity contemplated by our patent
system. The existence of a genus claim does not mean
that medicines developed by others that fall within the
scope of the claim would be prevented from reaching the
market. It simply means that the patentee would be fairly
compensated. The patent system would be serving its
purpose, providing reward for early and full disclosure
of an innovation the world needs to know about.
II. THE FEDERAL CIRCUIT’S RECENT DECISIONS
CAST ASIDE ALMOST TWO CENTURIES OF
PATENT PRACTICE TO RADICALLY CURTAIL
GENUS CLAIMING.
For t he rea sons not ed above, chem ic a l a nd
pharmaceutical innovators depend upon properly
Pfizer, Inc. v. Apotex, Inc., 480 F.3d 1348, 1371 (Fed. Cir. 2007)
(determining that species claim was obvious in view of prior
art genus claim because of a lack of evidence of unexpected
results); In re Woodruff, 919 F.2d 1575, 1578 (Fed. Cir. 1990)
(stating that to claim a subset of a range disclosed in a prior art
patent, the applicant must generally show that “the claimed range
achieves unexpected results relative to the prior art range”).

8
supported genus claiming to provide adequate and efficient
protection for their inventions. Without correction, Idenix’s
radical departure from that established mechanism—
effectively removing genus claiming, however wellsupported, as an option for the protection of chemical
structures—not only forsakes the straightforward text
of the patent laws, but also undermines the sound policies
supporting those laws.
A.

Courts Have Long Recognized That The Plain
Text Of The Patent Act Allows For Genus
Claiming Where The Claims Are Enabled.

The Patent Act requires that a patent “contain a
written description of the invention” in “such full, clear,
concise, and exact terms as to enable any person skilled in
the art to which it pertains, or with which it is most nearly
connected, to make and use the same.” 35 U.S.C. § 112(a).
This “enablement” requirement is perfectly consistent
with genus claiming,9 provided that the patent disclosure
enables artisans to “make and use” embodiments (or
variations) of the claimed inventions.
As early as 1854, this Court acknowledged that
patent protection could cover an entire genus, even while
grappling with the appropriate circumstances of such
9. See, e.g., Regents of the Univ. of California v. Eli Lilly
& Co., 119 F.3d 1559, 1568 (Fed. Cir. 1997) (“In claims involving
chemical materials, generic formulae usually indicate with
specificity what the generic claims encompass. One skilled in the
art can distinguish such a formula from others and can identify
many of the species that the claims encompass. Accordingly, such
a formula is normally an adequate description of the claimed
genus.”).

9
protection. See, e.g., O’Reilly v. Morse, 56 U.S. 62, 62 (1854)
(concluding that the inventor of the telegraph was not
entitled to a claim over every “use of the motive power
of the electric or galvanic current . . . however developed
. . . for making or printing intelligible characters, signs or
letters at any distances” because not all of those “use[s]”
fell within the scope the invention); Consol. Elec. Light
Co v. McKeesport Light Co., 159 U.S. 465, 472 (1895)
(invalidating a claim over the use of “every fibrous or
textile material” as an incandescent lightbulb filament
because the inventors had not “discovered in fibrous
and textile substances a quality common to them all,”
but noting that if they had, “such claim might not be too
broad”).
In 1916, the Court affirmed the validity of a genus
claim directed toward a class of substances used to
separate ores, finding that the patent was sufficiently
enabling for an artisan to make use of the invention,
despite “infinite[]” variations in the compositions of the
ores themselves. Minerals Separation v. Hyde, 242 U.S.
261, 271 (1916). This “infinite[]” variation and the fact that
some experimentation would be necessary for artisans to
practice the invention was not fatal to the genus claim.
Equally untenable is the claim that the patent
is invalid for the reason that the evidence
shows that when different ores are treated
preliminary tests must be made to determine
the amount of oil and the extent of agitation
necessary in order to obtain the best results.
Such variation of treatment must be within
the scope of the claims, and the certainty
which the law requires in patents is not

10
greater than is reasonable, having regard
to their subject matter. The composition of
ores varies infinitely, each one presenting its
special problem, and it is obviously impossible
to specify in a patent the precise treatment
which would be most successful and economical
in each case.
Id. at 270–71 (emphasis added). The Court appropriately
recognized that enablement is an industry and casespecific inquiry and that “the certainty which the law
requires in patents is not greater than is reasonable,
having regard to their subject matter.” Id. at 270
(emphasis added). Additionally, the patentee was entitled
to rely on the artisan’s background knowledge and skill
in describing how to practice the invention.
The process is one for dealing with a large
class of substances and the range of treatment
within the terms of the claims, while leaving
something to the skill of persons applying
the invention, is clearly sufficiently definite to
guide those skilled in the art to its successful
application, as the evidence abundantly shows.
This satisfies the law.
Id. at 271 (emphasis added).
In 1928, the Court again confirmed the statutory
availability of genus claims where the patentee had shown
some “general quality common” to the members of the
genus. Corona Cord Tire Co. v. Dovan Chem. Corp., 276
U.S. 358, 385 (1928) (but concluding that the inventor
in that case could not claim the benefit of a genus of

11
chemical “accelerators” where too many species in the
genus were “not accelerators at all”). Under these early
cases, the touchstone of enablement for genus claims
was simply whether the patent disclosure sufficiently
enabled artisans—with whatever level of skill is typical
in the industry—to “make and use” embodiments of the
invention. That history should be unsurprising, because
then—and now—that is exactly what the text of the Patent
Act requires.10
The courts have also explained that the Patent
Act “requires that the specification teach those in
the art to make and use the invention without ‘undue
experimentation.’” In re Vaeck, 947 F.2d 488, 495 (Fed.
Cir. 1991) (quoting In re Wands, 858 F.2d 731, 737 (Fed.
Cir. 1988)). Cf. Holland Furniture Co. v. Perkins Glue
Co., 277 U.S. 245, 257 (1928) (“One attempting to use
or avoid the use of Perkins’ discovery as so claimed and
described functionally could do so only after elaborate
experimentation.”). Despite this, the text of the Patent Act
does not impose any limitations on the number of species
that may be contained within a genus claim.
10. An earlier version of the statute contained substantially
similar language to the modern Patent Act, so these early cases
remain illustrative to the interpretation of the current version.
The earlier version stated: “Before any inventor or discoverer
shall receive a patent for his invention or discovery he shall make
application therefor, in writing to the Commissioner of Patents,
and shall file in the Patent Office a written description of the
same and of the manner and process of making, constructing,
compounding and using it, in such full, clear, concise, and exact
terms as to enable any person skilled in the art or science to which
it appertains, or with which it is most nearly connected, to make,
construct, compound, and use the same.” Rev. Stat. § 4888, ch.
230, § 26, 16 Stat. 201 (1870).

12
Recognizing that the Patent Act does not treat genus
claims differently from other claims, the courts in the mid
to late-twentieth century have repeatedly recognized the
validity and appropriateness of genus claiming, especially
in the chemical and pharmaceutical industries. Along the
way, the courts rejected the notion that the text of the
Patent Act requires a patentee to test and disclose the
efficacy of every compound within the claimed genus.
In 1960, for example, the Court of Customs and Patent
Appeals (“CCPA”), the predecessor to the Federal
Circuit, explained that a genus claim was permissible
if “the disclosure teaches those skilled in the art what
the invention is and how to practice it.” Application of
Grimme, 274 F.2d 949, 952 (C.C.P.A. 1960). In that case,
there was nothing indicating that the compounds in the
genus “differ[ed] radically from each other.” Id. The court
therefore found “that the examples given [we]re adequate
to show those skilled in the art how the invention of the
appealed claims is to be practiced,” and confirmed the
availability and validity of the issued genus claim. Id.
During that era, the CCPA, in a chemical catalyst
patent case, also recognized that it would be unnecessary
and indeed futile to require patentees to draft “a patent
application or applications with thousands of examples,”
as well as “disclosure of thousands of catalysts along
with information as to whether each exhibits catalytic
behavior.” Application of Angstadt, 537 F.2d 498, 502
(C.C.P.A. 1976) (internal quotation marks omitted). “[S]uch
a requirement,” the court reasoned, would be undesirable
“even in an unpredictable art” not only because it “would
force an inventor seeking adequate patent protection to
carry out a prohibitive number of actual experiments,”
but also because it “would tend to discourage inventors

13
from filing patent applications in an unpredictable area
since the patent claims would have to be limited to those
embodiments which are expressly disclosed.” Id. at 502–
03. Likewise, “[a] potential infringer could readily avoid
‘literal’ infringement of such claims by merely finding
another analogous catalyst complex.’” Id. at 503. Thus,
the court recognized both the efficiency of genus claiming
and the public policy and copying risks posed in its
absence. Inventors would choose trade secret protection
over public disclosure because filing for a patent over
only some embodiments would enable copyists to make
other embodiments, eviscerating the inventor’s period of
exclusivity. Id. at 502–03. That result either deprives the
public of advances in knowledge, or the inventor of the
benefits of her invention and investment.
In short, having weighed the benefits and costs of
genus claiming—the same policy considerations affecting
innovator companies such as GSK—this Court and the
Federal Circuit’s predecessor court endorsed without
reservation the full breadth of genus claiming consistent
with the Patent Act that the Federal Circuit has now
curtailed in Idenix. As discussed further in Part II.B, the
courts also recognized that enablement is a case-specific
inquiry that must take into account industrial realities
and the artisans’ level of skill and background knowledge.
B. Pre-Idenix Case Law Applied A Case-Specific
Enablement Analysis Appropriately Tailored
To The Scope Of Genus Claims.
Following this Court’s approach, the Federal Circuit
developed case-specific tools applying the requirements of
the Patent Act to ensure that genus claims appropriately

14
reflect the technological context, artisans’ level of skill
and background knowledge, and the scope of the patent
disclosure. For instance, Federal Circuit case law has
recognized that enablement of a genus claim does not
depend on whether the patentee vets every embodiment
for efficacy if that is not necessary for an artisan to make
and use the invention. In Atlas Powder, for example, the
patent challenger, Du Pont, “argue[d] that the patent
disclosure lists numerous salts, fuels, and emulsifiers
that could form thousands of emulsions but there is no
commensurate teaching as to which combination would
work.” Atlas Powder Co. v. E.I. du Pont De Nemours &
Co., 750 F.2d 1569, 1576 (Fed. Cir. 1984). “The disclosure,”
according to Du Pont, was “nothing more than ‘a list
of candidate ingredients’ from which one skilled in the
art would have to select and experiment unduly to find
an operable emulsion.” Atlas Powder, 750 F.2d at 1576.
Rejecting this argument, the Federal Circuit instead
concluded that “[e]ven if some of the claimed combinations
were inoperative, the claims are not necessarily invalid.”
Id. According to the court, the key question was not
whether every combination in the genus worked but
whether an artisan could create a working embodiment
without undue experimentation. Id. at 1576–77 (citations
omitted). Because the disclosure was sufficient to enable
an artisan to create working embodiments of the invention,
the Patent Act allowed the genus claim.
The courts over time appropriately developed this
fact-based “undue experimentation” inquiry into a nonexhaustive multi-factor inquiry. In particular, the courts
take into account: (1) the quantity of experimentation
necessary; (2) the amount of direction or guidance
presented; (3) the presence or absence of working

15
examples; (4) the nature of the invention; (5) the state of
the prior art; (6) the relative skill of those in the art; (7)
the predictability or unpredictability of the art; and (8)
the breadth of the claims. See In re Wands, 858 F.2d at
737. That framework appropriately recognizes the casespecific nature of the enablement analysis and that judges
should not impose arbitrary bright-line rules.
The Federal Circuit has also correctly recognized that
even in the so-called “unpredictable arts,” like chemistry,
enablement depends heavily on the circumstances of
the case, and is not susceptible to bright-line rules. See
In re Vaeck, 947 F.2d at 496 (“[W]e do not imply that
patent applicants in art areas currently denominated
as ‘unpredictable’ must never be allowed generic claims
encompassing more than the particular species disclosed
in their specification. It is well settled that patent
applicants are not required to disclose every species
encompassed by their claims, even in an unpredictable
art.”). Instead, “the disclosure must adequately guide the
art worker to determine, without undue experimentation,
which species among all those encompassed by the claimed
genus possess the disclosed utility.” Id.
As the cases above demonstrate, federal courts have
long understood that the enablement question should
depend on the degree of experimentation that it would take
for an artisan to create an embodiment of the invention,
and not on the number of species within a claimed genus
or on whether every embodiment disclosed works. That
does not mean that a person can claim a very large genus
where only very few embodiments work. “Of course,
if the number of inoperative combinations becomes
significant, and in effect forces one of ordinary skill in

16
the art to experiment unduly in order to practice the
claimed invention, the claims might indeed be invalid.”
Atlas Powder, 750 F.2d at 1576-77 (emphasis added).
But where the proportion of inoperative embodiments is
sufficiently small such that artisans can “make and use”
the invention without undue experimentation, the patent
should be valid. Idenix’s bright-line rule, which assesses
enablement in light of the number of species within a
claimed genus, ignores this important analysis—shortcircuiting an important tool for patent protection without
appropriate consideration of the specifics of the industry
and of the case.
C.

The Federal Circuit Has Recently Adopted
Bright-Line Rules That Effectively Eliminated
Patentees’ Ability To Claim A Genus of
Compounds.

Despite having reaffirmed the validity of genus claims
for decades (consistent with the Court’s precedents and
the text of the Patent Act),11 in recent years, the Federal
Circuit has strayed from the plain text of the Patent Act
to engraft additional conditions to the Act’s “enablement”
requirement. More specifically, contrary to the Patent
Act and precedent, the Federal Circuit in Wyeth and
Idenix imposed arbitrary numerical limits on the number
of species that can exist in an enabled genus claim and
required that the patent enable the reader to perform the
11. See, e.g., Hynix Semiconductor Inc. v. Rambus Inc.,
645 F.3d 1336, 1352 (Fed. Cir. 2011) (stating that “there is no
categorical rule that a species cannot suffice to claim the genus”);
Utter v. Hiraga, 845 F.2d 993, 998–99 (Fed. Cir. 1988) (rejecting
argument that a genus claim was invalid due to unpredictability
in the art).

17
unrealistic task of making and testing substantially every
species within a genus claim.
Strikingly, in 2013, the Federal Circuit in Wyeth
stated that “practicing the full scope of the claims . . .
would require synthesizing and screening” thousands
of compounds, and that the genus claims were therefore
invalid for lack of enablement “as a matter of law.” Wyeth
& Cordis Corp. v. Abbott Labs., 720 F.3d 1380, 1385–86
(Fed. Cir. 2013). The court announced this numeric
limitation on the scope of a genus claim without regard
to the industry or case specific details of how easily an
artisan could “make and use” a working embodiment of
the invention. As described below, Idenix further solidified
this and other erroneous bright-line rules undermining
the viability of genus claims.
1.

Idenix Codifies A Bright-Line Rule
Creating A Numerical Limit On The
Number Of Compounds In A Genus Claim.

Building on the unprecedented and atextual
requirements it created in Wyeth, the Federal Circuit
in Idenix has now all but eliminated the genus claim as
an effective and reliable means of protecting intellectual
property, particularly in the chemical arts. The court
in Idenix affirmed a district court’s grant of judgment
as a matter of law that a genus claim was not enabled—
overturning a jury verdict that had upheld the claims
based on the specific facts of the case. Idenix Pharm.
LLC v. Gilead Scis. Inc., 941 F.3d 1149, 1165 (Fed. Cir.
2019). The court reasoned that its earlier decision in Wyeth
compelled that result because “as here, [the Wyeth] claim
[] encompassed millions of compounds made by varying

18
the substituent groups, while only a significantly smaller
subset of those compounds would have the claimed
functional effects,” and “in both cases, scientific testimony
confirmed that practicing the full scope of the claims would
require synthesizing and screening tens of thousands
of candidate compounds for the claimed efficacy.” Id. at
1162-63.
In reaching that conclusion, the court noted that the
claim “encompass[es] at least many, many thousands of
[compounds] which need to be screened for [] efficacy,
the quantity of experimentation needed is large and
weighs in favor of non-enablement.” Id. at 1159. Yet the
court also acknowledged that a reasonable juror could
have concluded based on the evidence at trial that the
“synthesis” and “screening” of an individual compound
was largely “routine”; that “a[n artisan] could synthesize
[a] particular compound in relativity short order”; and that
“a significant number of nucleosides were available off-theshelf in libraries.” Id. at 1157-60. Despite recognizing facts
that significantly reduced any experimentation required to
“make and use” the invention, the court nonetheless found
that because “there were at least many, many thousands
of candidate compounds, many of which would require
synthesis and each of which would require screening,”
that alone “constitutes undue experimentation.” Id. at
1163. The court therefore held as a matter of law that
the claim was invalid for lack of enablement. Id. at 1165.

19
2.

Idenix Also Adds To The Court’s Trend
Toward A Bright-Line Rule That A
Patentee Must Enable Ever y Single
Species In A Genus Claim.

The decision in Idenix also advances the unfounded
trend in the Federal Circuit’s recent jurisprudence
requiring each and every species within a genus claim to
be enabled. The Patent Act does not require the patentee
to enable artisans to “make and use” every embodiment
of an invention. And longstanding case law has recognized
that industry and case-specific details should be the
focus of the enablement inquiry. As discussed above,
when case-specific details were accounted for, courts
routinely recognized that claims could be enabled despite
the fact that some of their embodiments were not. Yet
the Idenix decision seems to further push in the wrong
direction, building on the erroneous reasoning in cases
such as Wyeth and imposing arbitrary bright-line rules.
Synthesizing and testing each and every embodiment of
a claimed genus for efficacy requires a prohibitive amount
of experimentation and is not a requirement in any other
type of patent claiming, particularly in industries such as
the chemical and pharmaceutical arts where the level of
skill is high and results may be, in certain circumstances,
predictable. The Federal Circuit’s recent requirements
would diminish incentives for companies such as GSK to
invest in the research and development of groundbreaking
pharmaceuticals.

20
CONCLUSION
Genus claims are critical to continued innovation
in the chemical and pharmaceutical industries. That
appropriately acknowledges that innovations in such
industries often take the form of inventive related
chemical structures that form a genus. But the Federal
Circuit has recently invalidated such claims, ignoring
the plain language of the Patent Act, and engrafting
additional conditions on genus claiming that are not found
in the Patent Act itself. It has also improperly focused on
bright-line rules in assessing enablement rather than on
the circumstance specific to the industry and the case in
question. Those developments are bad law and threaten
to upend the chemical and pharmaceutical industries’
incentives to develop novel chemical structures and their
ability to protect past and future innovation. The Court
should take up the petition to correct these atextual
legal developments and to reconfirm the availability and
viability of genus claiming under the Patent Act.

Todd L. Krause
Thomas J. Derbish
Eli Balsam
Desmarais LLP
230 Park Avenue
New York, NY 10169

Respectfully submitted,
John M. Desmarais
Counsel of Record
Desmarais LLP
230 Park Avenue
New York, NY 10169
(212) 351-3420
jdesmarais@desmaraisllp.com

Counsel for Amicus Curiae

